        DEPARTMENT OF
              HEALTH
           AND HUMAN
             SERVICES



                  Fiscal Year

                  2009

Office of Inspector General


         Performance Appendix
The Online Performance Appendix is one of several documents that fulfill the Department of
Health and Human Services’ (HHS’) performance planning and reporting requirements. HHS
achieves full compliance with the Government Performance and Results Act of 1993 and Office
of Management and Budget Circulars A-11 and A-136 through HHS agencies’ FY 2009
Congressional Justifications and Online Performance Appendices, the Agency Financial Report
and the HHS Performance Highlights. These documents can be found at:
http://www.hhs.gov/budget/docbudget.htm and http://www.hhs.gov/afr/.

The Performance Highlights briefly summarizes key past and planned performance and
financial information. The Agency Financial Report provides fiscal and high-level performance
results. The FY 2009 Department’s Congressional Justifications fully integrate HHS’ FY 2007
Annual Performance Report and FY 2009 Annual Performance Plan into its various volumes.
The Congressional Justifications are supplemented by the Online Performance Appendices.
Where the Justifications focus on key performance measures and summarize program results,
the Appendices provide performance information that is more detailed for all HHS measures.

The Office of Inspector General Congressional Justification and Online Performance Appendix
are located on the OIG web site at http://www.oig.hhs.gov/publications.
Online Performance Appendix                                                 Department of Health and Human Services
                                                                                          Office of Inspector General


                                        Summary of Measures and Results


                                    Results Reported                                  Targets

                                                                                      Not Met
                   Total
        FY        Targets       Number              %              Met          Total       Improved      % Met
       2002          5              5             100%               5           0            N/A         100%

       2003           5             5             100%               3            2              2         60%

       2004 1         6             5             100%               3            2              0         60%

       2005 2         3             2             100%               2            0             N/A       100%

       2006           3             3             100%               3            0             N/A       100%

       2007           3             3             100%               3            0             N/A       100%

       2008           3          Jan 09          Jan 09          Jan 09        Jan 09         Jan 09      Jan 09




   1
             Unreported result is the developmental measure, for which the baseline was set in FY 2004.
   2
             The third measure was developmental; therefore, there was no target for FY 2005.




                                                                                                                   Page 1
Online Performance Appendix                                                  Department of Health and Human Services
                                                                                           Office of Inspector General


                                                 Performance Detail

                                                Key Outcomes Table

       #   Key Outcomes         FY 2004    FY 2005          FY 2006              FY 2007            FY 2008    FY 2009   Out-Year
                                 Actual     Actual     Target     Actual    Target     Actual        Target     Target    Target
   Long Term Objective 1: Make a positive impact on HHS programs
   1.1  Expected recoveries      $2,024     $2,346     $2,580     $2,678    $2,460      $2,835      $2,623     Sept-08   Sept-09
        from investigative
        receivables and
                              3
        audit disallowances
        (Dollars in millions)
   1.1  Return on               $10.5 : 1  $11.6 : 1  $11.9 : 1 $12.9 : 1   $11.4 : 1   $16.4 : 1   $13.5: 1   Sept-08   Sept-09
                    3
        Investment
                                                                       4
   1.3  Number of accepted         68         73         70        116         75         88          75       Sept-08   Sept-09
        quality and
        management
        improvement
        recommendations


   *note: Performance measures 1.1 and 1.2 reflect the three-year moving average ending in the year
   indicated by the column heading. A description for this reporting methodology is on page 3.


   Performance Narrative

   The OIG performance reporting framework contains three performance measures that articulate
   the organization’s progress in accomplishing its mission of preventing and detecting fraud,
   waste, and abuse and promoting economy, efficiency and effectiveness in HHS programs and
   operations. The performance measures are:
          (1) expected recoveries from investigative receivables and audit disallowance,
          (2) return on investment, and
          (3) number of accepted quality and management recommendations.

   These measures are “intermediate outcome” measures that capture organizational performance
   by tracking the results of discreet program activities that are expected to contribute to the
   accomplishment of OIG’s “end outcome” goal (e.g., to prevent and detect fraud, waste and
   abuse). The distinctions between intermediate outcome and end outcome measures are
   especially useful in the context of law enforcement agencies, and in Offices of Inspector
   General they enable performance reporting consistent with the actual organizational scope of
   influence.

   OIG’s are collaborative organizations by nature, and the ultimate measures of organizational
   effectiveness (e.g., number of prosecutions, financial returns to the government etc.) are highly
   dependent on the combined success of partners spanning various levels of government. For

   3
            The Deficit Reduction Act of 2005, which became law during the second quarter of FY 2006, appropriated
            $25 million per year to OIG from FY 2006 to 2010, to be available until expended. None of the FY 2006
            appropriation was spent; therefore, the denominator used to calculate return on investment covering FY
            2006 excludes that amount.
   4
            This result is higher than the target of 70 by nearly 60 percent. Most of the increase was attributable to
            evaluation/inspection reports, three of which were complex and contained an unusually large number of
            recommendations.


                                                                                                                          Page 2
Online Performance Appendix                                      Department of Health and Human Services
                                                                               Office of Inspector General

   example, OIG investigates and develops cases for prosecution, but must then refer each case
   to the U.S. Attorney’s Office at the Department of Justice for prosecution. Whether or not a
   case is ultimately pursued beyond OIG’s referral to DOJ is dependent on numerous factors,
   including the availability of resources and prosecutorial discretion.

   Similarly, OIG’s audit and inspection reports contain findings and recommendations that fall
   outside OIG’s scope of influence to implement. Such findings and recommendations often
   include specific information that enables HHS program managers to disallow program costs and
   pursue the recovery of misspent funds, to pursue administrative or legislative changes, or to
   improve the operations of a program. Almost all of OIG’s audit and inspection reports contain
   findings and/or recommendations. In cases where recommendations to disallow costs or
   pursue administrative or policy improvements are made, HHS program managers have up to 6
   months to respond to OIG findings/recommendations and to either concur with or reject OIG
   conclusions. In all cases, even when program managers accept OIG recommendations,
   implementation of recommendations beyond “acceptance” is predicated on management
   discretion, the availability of resources, and many other factors. As a result, some OIG
   recommendations are accepted by program managers and not implemented.


   Summary of “Expected Recoveries” and “Return on Investment” Performance Measures:

   The performance measure for expected recoveries is comprised of identified and documented
   expected recoveries that resulted in audit disallowances and investigative outcomes such as
   successful prosecutions, court ordered restitution, and out of court settlements during a given
   reporting period. Expected recoveries are generally a good measure of an OIG’s direct financial
   benefit to the government, however as you will see throughout this section, measures of the
   many significant non-financial contributions of OIG’s are important as well.

   Once expected recoveries are determined for a reporting period, an OIG-wide return on
   investment is calculated. The return on investment is calculated as the ratio of expected
   recoveries to the total cost of operating the OIG (e.g., $10:1). Expected recoveries and return
   on investment are OIG Program Assessment Rating Tool (PART) measures for the HCFAC
   program, however similar calculations are also used to articulate the direct financial benefit of
   OIG’s oversight of HHS’ non-Medicare and Medicaid programs and operations as well.

   For both performance measures, expected recoveries and return on investment, performance is
   reported using a three-year moving average. This methodology enables OIG to account for the
   multiple year duration that is typical of audits and investigations, the time required for the U.S.
   Attorney’s to pursue and reach resolution on a case, and for the time built in to the
   recommendation process for program managers to respond to OIG recommendations. As a
   result of the long duration of audits and investigations and the staggering of results across
   multiple years, there are often significant year to year variances in OIG’s reported program
   outcomes. The three-year moving average is an important control to reflect the “ground truth”
   within which OIG operates.

   The challenges presented by the multiple year duration of OIG oversight activities are further
   complicated by the unpredictable outcomes of audit and investigative work in general. While
   OIG applies a rubric of several factors to target its resources to high risk areas, the outcomes of
   oversight activities are always subject to unpredictability. Although audit disallowances or
   investigative outcomes may be an anticipated result of OIG oversight activities, they are not


                                                                                                         Page 3
Online Performance Appendix                                              Department of Health and Human Services
                                                                                       Office of Inspector General

   guaranteed and may not always be a good indicator of whether an OIG is fulfilling its
   responsibility to act as an unbiased agent of program integrity.


   Performance Reporting for “Expected Recoveries” and “Return on Investment”
   Performance Measures

   OIG’s performance measures for expected recoveries and return on investment are reported at
   two levels, (1) organization-wide or (2) based on category of funding.

   During the three-year period from FY 2005 to FY 2007 the total OIG expected recoveries
   averaged $3.14 billion per year, exceeding all previous reporting periods and the prior reporting
   period by 17 percent. The returns averaged more than $1.82 billion in investigative receivables
   and $1.32 million in audit disallowances per year. The resultant organization-wide return on
   investment for the FY 2005 to FY 2007 reporting period was 14.5 dollars for each dollar spent in
   the OIG operating budget.

   Because approximately 80 to 83 percent of OIG’s annual operating budget is appropriated
   through mandatory funding streams with specific requirements to oversee the Medicare and
   Medicaid programs (e.g., HIPAA/HCFAC and DRA/MIP) it is also important to separate
   reporting based on funding stream. In fact, both of these measures, expected recoveries and
   return on investment, are measures used for the PART for the HCFAC program. For the three-
   year period from FY 2005 to FY 2007, OIG investigative receivables and audit disallowances
   resulting from Medicare and Medicaid oversight averaged $1.8 billion and $1 billion per year
   respectively. The result was a Medicare and Medicaid oversight specific return on investment
   for OIG of $16.4:1. Both measures exceed the established PART targets.

   The remaining 17 to 20 percent of OIG’s annual operating budget is appropriated through a
   single discretionary funding stream that is available for oversight of the more than 300 non-
   Medicare and Medicaid programs and operations at HHS. In addition to funding oversight of
   these programs with discretionary resources, OIG must also fund activities related to several
   required roles that OIG takes within the department, including the financial statement audits,
   FISMA compliance audits, and for providing physical security to ensure the Secretary’s safety.
   As a result of OIG’s oversight of these programs, during the FY 2005 to FY 2007 period OIG
   audit disallowances and investigative receivables averaged $298 million and $10 million per
   year respectively. The result was a return on investment of $7.8 for each discretionary dollar
   spent in the OIG budget during the same period.

   Detailed summaries of the audits and types of investigations that were completed during
   FY 2007 are reported in the OIG Fall and Spring Semiannual Report to Congress, which can be
   found on the OIG web site. 5 Samples of the outcome oriented descriptions included in the
   Semiannual Reports include:

       Examples of Oversight Related to the Medicare and Medicaid Programs:

       Purdue Companies and Three Executives to Pay Nearly $635 Million for Fraudulently
       Marketing OxyContin. As part of a global criminal, civil, and administrative settlement
       agreement, the Purdue Frederick Company, Inc., and Purdue Pharma L.P. (collectively, the
   5
          Office of Inspector General, Semiannual Report. http://oig.hhs.gov/publications/semiannual.html#1


                                                                                                              Page 4
Online Performance Appendix                                      Department of Health and Human Services
                                                                               Office of Inspector General

      Purdue Companies), and three top executives agreed to pay almost $635 million to resolve
      a variety of Federal, State, and private liabilities. Specifically, the agreement resolved
      allegations that the Purdue Companies waged a fraudulent and deceptive marketing
      campaign aimed at convincing doctors nationwide that OxyContin, because of its time-
      release formula, was less prone to abuse and that it was less likely to cause addiction or to
      produce other narcotic side effects than competing immediate release opioids. The Purdue
      Frederick Company, Inc. is subject to a 25-year exclusion from Medicare/Medicaid; Purdue
      Pharma L.P. agreed to enter a 5-year corporate integrity agreement (CIA) with OIG.

      South Florida Medicare Fraud. OIG used a multifaceted approach to fight Medicare fraud in
      South Florida in cooperation with our partners at the U.S. Attorney’s Office for the Southern
      District of Florida. Together we developed innovative methods to identify and prosecute fraud
      resulting in $54.3 million in investigative receivables and a number of criminal indictments
      related to durable medical equipment fraud. Additionally, we analyzed the claims patterns of
      HIV/AIDS infusion therapy providers and beneficiaries in three South Florida counties and
      determined that in the last half of 2006, these counties accounted for half of the total amount,
      and 79 percent of the amount for drugs, billed nationally for Medicare beneficiaries with
      HIV/AIDS. We also found that the approaches CMS and its contractors have used to control
      these aberrant billing practices have not proven effective. We recommended that CMS treat
      South Florida as a high-risk area, mandate site visits for certain providers, adjust contractor
      standards for processing new applications, modify the Statement of Work for the jurisdiction
      that includes South Florida, review all reassignments in high-risk areas, and strengthen
      revocations.

      Example of Oversight of HHS’ Non-Medicare and Medicaid Programs:

      Aid to Families With Dependent Children Overpayment Recoveries. OIG reviewed 43
      States and found that 24 States complied with Federal requirements and reimbursed ACF
      $59 million for the Federal share of Aid to Families With Dependent Children (AFDC)
      overpayment recoveries from July 2002 through June 2006. Although the remaining 19
      States and the District of Columbia continued to recover overpayments from former AFDC
      recipients after the program ended in 1996, these governments did not reimburse ACF
      $28.7 million for the Federal share of their recoveries. OIG determined that 19 States and
      the District of Columbia did not reimburse ACF as required because they did not follow
      ACF’s program instruction. In addition, ACF did not have monitoring procedures to ensure
      that the Federal Government received its share of AFDC overpayment recoveries from all
      States. OIG recommended that ACF (1) collect from the 19 States and the District of
      Columbia the Federal share of AFDC overpayment recoveries totaling $28.7 million and
      (2) establish monitoring procedures to ensure that the Federal Government receives its
      share of future State-recovered AFDC overpayments in a timely manner. ACF agreed with
      the recommendations.


   Summary of “Number of Accepted Quality and Management Improvement
   Recommendations”

   In addition to the direct financial recoveries described above, OIG reports the number of
   accepted quality and management improvement recommendations that resulted from audit and
   evaluation reports issued during a reporting period. This performance measure captures an
   important aspect of OIG’s efforts to identify and correct systematic weaknesses in program


                                                                                                         Page 5
Online Performance Appendix                                      Department of Health and Human Services
                                                                               Office of Inspector General

   administration and policy implementation and reflects a significant aspect of OIG’s contribution
   to improving the operations of the department.
   Once OIG reports are completed and transmitted to the program under consideration, HHS
   program managers have a defined time period during which they must submit a formal response
   to document their concurrence or disagreement with OIG findings and recommendations.
   Whether or not program managers concur or disagree with OIG recommendations is generally a
   good indicator of the merit and validity of OIG recommendations. However, acceptance of a
   recommendation is different from implementation of the recommendation, which is subject to
   many factors outside the control of OIG, such as the availability of resources and management
   discretion. As a result, some OIG recommendations are accepted and not implemented. OIG
   therefore considers the performance measure, number of accepted quality and management
   improvement recommendations, an intermediate outcome measure.


   Performance Reporting for “Number of Accepted Quality and Management Improvement
   Recommendations”

   HHS’ Operating and Staff Divisions accepted 88 of OIG’s quality and management improvement
   recommendations during FY 2007. This result exceeded the annual target of 75 by 17 percent.

      Example “Accepted Quality and Management Improvement Recommendations:”

      Enrollment Levels in Head Start. OIG assessed enrollment levels in the Head Start
      program, which is overseen by the Administration for Children and Families (ACF). Head
      Start regulations require grantees to maintain enrollment at 100 percent of the funded
      enrollment level. OIG found that almost all Head Start grantees had high enrollment levels.
      Overall, 5 percent of Head Start slots were funded but not filled. Grantees cited a variety of
      challenges to maintaining full enrollment, including transportation issues. OIG also found
      that ACF’s monitoring of enrollment levels may rely on inaccurate data. Following the
      release of this report, ACF developed and put online a “transportation pathfinder,” which
      provides transportation resources to grantees. Additionally, ACF made changes to their
      Program Information Report system to improve data accuracy. These changes are
      expected to improve ACF’s ability to monitor Head Start enrollment as well as grantees’
      ability to maintain full enrollment.

      FDA’s Oversight of Clinical Trials Through Its Inspection Processes. Through an evaluation
      OIG identified data limitations and other factors that affect the Food and Drug
      Administration’s (FDA) ability to effectively manage the Bioresearch Monitoring (BiMo)
      program. For example, FDA is unable to identify all clinical trials and institutional review
      boards (IRB), and it lacks a single database for tracking its own inspections. Furthermore,
      the three FDA centers and the Office of Regulatory Affairs inconsistently classify some
      inspections. In addition, FDA’s guidance and regulations do not reflect current clinical trials
      practices. Finally, OIG developed estimates for the coverage of FDA clinical trials
      inspections for the fiscal year 2000–2005 period of approximately 1 percent. As a result, we
      recommended that FDA take the following steps to improve its information systems and
      processes: (1) develop a clinical trial database that includes all clinical trials, (2) create an
      IRB registry, (3) create a cross-center database that enables complete tracking of BiMo
      inspections, (4) establish a mechanism to provide feedback to BiMo investigators on their




                                                                                                          Page 6
Online Performance Appendix                                                   Department of Health and Human Services
                                                                                            Office of Inspector General

       inspection reports and findings, and (5) seek legal authority to provide oversight that reflects
       current clinical trial practices.

   Additional summaries of OIG audit and evaluation reports that resulted in accepted quality and
   management improvement recommendations during FY 2007 can be found in the OIG’s 2007
   Semiannual Reports to Congress.

   Program Performance Targets Exceeded or Not Met

   OIG performance related to the “expected recoveries” and “return on investment” performance
   measures exceeded the established PART targets for the three year period ending in FY 2007.
   The higher than anticipated returns were the result several large civil and criminal settlements
   that spanned multiple years and were resolved during FY 2007. Based on the audits and
   investigations currently underway or anticipated to reach final resolution during FY 2008, OIG
   does not anticipate similarly high levels of recoveries in the next reporting period. As such, the
   targets set for the reporting period ending in FY 2008 have been adjusted downward to match
   the expectations of audits and investigations that should be finalized before year end.
                                               6
   Discussion of OIG Strategic Plan

   The mission of the Office of Inspector General (OIG), as mandated by the Inspector General Act
   of 1978 (Public Law 95-452, as amended), is “(1) to conduct and supervise audits and
   investigations relating to the programs and operations of [the Department of Health and Human
   Services (HHS)]; (2) to provide leadership and coordination and recommend policies for
   activities designed (A) to promote economy, efficiency, and effectiveness in the administration
   of, and (B) to prevent and detect fraud and abuse in, such programs and operations; and (3) to
   provide a means for keeping [the Secretary] and the Congress fully and currently informed
   about problems and deficiencies relating to the administration of such programs and operations
   and the necessity for and progress of corrective action.” 7

   OIG’s current Strategic Plan, which is referenced throughout this budget submission, contains
   three strategic goals. They are:

       •   Strategic Goal 1: Make a positive impact on HHS programs
       •   Strategic Goal 2: Operate efficiently
       •   Strategic Goal 3: Maintain a highly skilled and committed staff

   The first OIG strategic goal, to make a positive impact on HHS programs, reflects the purpose
   and mission of OIG. The second and third strategic goals are internal management goals that
   focus on improving OIG’s ability to achieve its mission.

   OIG’s mission is carried out by conducting audits, evaluations, inspections, investigations,
   enforcement actions, and beneficiary and industry outreach. OIG undertakes these activities
   with the purposes of (1) improving the efficiency and effectiveness of HHS programs; (2)

   6
           OIG is currently developing a revised Strategic Plan and associated performance reporting framework. The
           revised Strategic Plan will include validated mission, vision, and strategic objective statements in addition to
           outcome oriented performance measures that link OIG oversight and program integrity activities to the OIG’s
           operational mission statement.
   7
           Inspector General Act of 1978 (Public Law 95-452, as amended)


                                                                                                                              Page 7
Online Performance Appendix                                     Department of Health and Human Services
                                                                              Office of Inspector General

   detecting and combating fraud, waste, and abuse; and, (3) addressing issues of concern to the
   Secretary, the President, and Congress.

   Links to HHS Strategic Plan

   OIG’s contributions in support of the HHS Strategic Plan for Fiscal Years 2007-2012 are as
   follows:

                                                                                   OIG Strategic
                                                                                       Goal:
                                                                                  Make a Positive
                                                                                  Impact on HHS
                                                                                     Programs
   HHS Strategic Goals
   1:  Health Care Improve the safety, quality, affordability and
       accessibility of health care, including behavioral health care and long-
       term care.
   1.1 Broaden health insurance and long-term care coverage.
   1.2 Increase health care service availability and accessibility.                     X
   1.3 Improve health care quality, safety, cost and value.                             X
   1.4 Recruit, develop and retain a competent health care workforce.
   2:  Public Health Promotion and Protection, Disease Prevention,
       and Emergency Preparedness Prevent and control disease, injury,
       illness and disability across the lifespan, and protect the public from
       infectious, occupational, environmental and terrorist threats.
   2.1 Prevent the spread of infectious diseases.                                       X
   2.2 Protect the public against injuries and environmental threats.                   X
   2.3 Promote and encourage preventive health care, including mental
       health, lifelong healthy behaviors and recovery.
   2.4 Prepare for and respond to natural and man-made disasters.                       X
   3:  Human Services Promote the economic and social well-being of
       individuals, families and communities.
   3.1 Promote the economic independence and social well-being of                       X
       individuals and families across the lifespan.
   3.2 Protect the safety and foster the well-being of children and youth.              X
   3.3 Encourage the development of strong, healthy and supportive
       communities.
   3.4 Address the needs, strengths and abilities of vulnerable populations.            X
   4:  Scientific Research and Development Advance scientific and
       biomedical research and development related to health and human
       services.
   4.1 Strengthen the pool of qualified health and behavioral science
       researchers.
   4.2 Increase basic scientific knowledge to improve human health and                  X
       development.
   4.3 Conduct and oversee applied research to improve health and well-                 X
       being.
   4.4 Communicate and transfer research results into clinical, public health           X
       and human service practice.


                                                                                                    Page 8
Online Performance Appendix                                    Department of Health and Human Services
                                                                             Office of Inspector General


   Narrative of OIG Contribution to the HHS Strategic Plan, Fiscal Years 2007-2012

   OIG contributes to the accomplishment of multiple HHS Strategic Goals. The following section
   demonstrates the relationship between OIG work and HHS’ Strategic Goals.

   •   HHS Strategic Goal 1: Health Care

       OIG work related to the formulation, implementation, administration, and oversight of the
       Medicare, Medicaid, and the State Children’s Health Insurance Program (SCHIP) programs
       helps ensure the integrity of the most sizeable HHS health care expenditures. In doing so,
       OIG work focuses on the availability, adequacy, quality, and efficiency of health care
       provided by organizations that receive HHS funds. Specifically, OIG’s oversight and
       enforcement work contributes to the accomplishment of HHS Strategic Objectives 1.2 and
       1.3.

       The HHS Agencies that have responsibility for “Health Care” functions on behalf of HHS that
       OIG oversees include the Centers for Medicare and Medicaid Services (CMS), Centers for
       Diseases Control and Prevention (CDC), Health Resources and Services Administration
       (HRSA), Indian Health Service (IHS), National Institutes of Health (NIH), and Substance
       Abuse and Mental Health Services Administration (SAMHSA).

       The OIG “Expected Recoveries” and “Return on Investment” performance measures as
       described in the section entitled “Overview of Performance” provide evidence of the OIG
       contribution to the accomplishment of HHS Strategic Goal 1.2 and 1.3 inasmuch as ensuring
       the solvency of the health care funding sources contributes to “increasing” and “improving”
       health care cost, availability, and accessibility.


   •   HHS Strategic Goal 2: Public Health Promotion and Protection, Disease Prevention,
       and Emergency Preparedness

       The individual audits, investigations, evaluations, and inspections that OIG conducts in the
       areas of public health and emergency preparedness help ensure the adequacy of Federal,
       State, and local preparedness and response plans. Moreover, OIG work related to FDA and
       the security of the food supply, and CDC and associated research institutions regarding the
       security of select agents also contribute to the accomplishment of HHS Strategic Objectives
       2.1, 2.2, and 2.4.

       The HHS Agencies that OIG oversees with responsibility for “Public Health Promotion and
       Protection, Disease Prevention, and Emergency Preparedness” include the Administration
       on Aging (AoA), Assistant Secretary for Preparedness and Response (ASPR), Agency for
       Toxic Substances and Disease Registry (ATSDR), CDC, CMS, FDA, and SAMHSA.




                                                                                                      Page 9
Online Performance Appendix                                         Department of Health and Human Services
                                                                                  Office of Inspector General


   •   HHS Strategic Goal 3: Human Services

       OIG contributes to the accomplishment of this goal through oversight work of the ACF in the
       areas of Temporary Assistance for Needy Children (TANF), child support enforcement, head
       start, and foster care. Moreover, OIG oversight of the AoA in areas such as Senior
       Medicare Patrol Projects, and IHS in the area of safeguards over controlled substances and
       audits of accounts receivable at IHS billing offices also contribute to this Strategic Goal.

       The HHS Agencies that OIG oversees that have primary responsibility for “Human Services”
       functions include ACF, AoA, and IHS.

       OIG’s role in oversight of “Human Services” programs contributes to the accomplishment of
       HHS Strategic Objectives 3.1, 3.2, and 3.4.


   •   HHS Strategic Goal 4: Scientific Research and Development

       OIG’s oversight of administrative operations and research conducted through the NIH and
       FDA, among other HHS Operating Divisions, helps foster a Federally funded research and
       development environment that ensures research integrity and instills public trust in HHS.

       The HHS Agencies that OIG oversees that have responsibly for “Scientific Research and
       Development” include the Agency for Healthcare Research and Quality (AHRQ), FDA and
       NIH.

       OIG’s role in investigating allegations of conflict of interests, research grant and clinical trials
       administration, and post-marketing contribute to the accomplishment of HHS Strategic
       Objectives 4.2, 4.3, and 4.4.


   OIG’s Underlying Contribution to the HHS Strategic Plan, Fiscal Years 2007-2012

   OIG’s diverse array of mission activities supports the Department’s commitment to responsible
   stewardship of taxpayer money, which includes the combat of fraud, waste, and abuse in all
   programs. In particular, OIG is integral to the HHS commitment to “conduct independent and
   objective audits, evaluations, analysis and investigations to asses the effectiveness and
   efficiency of policy and program implementation.” 8 Although this commitment is not an explicit
   Strategic Goal as in past HHS Strategic Plans 9 , integrity and efficiency of HHS programs and
   activities underlies the programmatic efforts of each HHS Operating and Staff Division and the
   expectations of the Secretary and the Administration. Therefore, although OIG’s targeted
   oversight work may not specifically address each and every HHS Strategic Goal and Objective,
   the work conducted by OIG contributes to the accomplishment of all HHS Strategic Goals and
   Objectives consistent with deeply rooted values held government-wide.



   8
           HHS Strategic Plan, Fiscal Years 2007-2012
   9
           HHS Strategic Plan, Fiscal Years 2004-2009


                                                                                                          Page 10
Online Performance Appendix                                   Department of Health and Human Services
                                                                            Office of Inspector General

   All three OIG performance measures, “expected recoveries,” “return on investment”, and
   “number of accepted quality and management improvement recommendations” provide
   evidence of OIG’s contribution towards the accomplishment of this important foundational value
   of the HHS Strategic Plan.




                                                                                                    Page 11
Online Performance Appendix                                            Department of Health and Human Services
                                                                                     Office of Inspector General


                                             Summary of Full Cost
                                              (Dollars in Millions)

                                                                                 Office of Inspector General
   HHS Strategic Goals and Objectives                                          FY 2007     FY 2008     FY 2009
                                                                                Actual     Enacted    Estimate
   1:   Health Care Improve the safety, quality, affordability and
        accessibility of health care, including behavioral health care and
        long-term care.
   1.1 Broaden health insurance and long-term care coverage.
   1.2 Increase health care service availability and accessibility.
   1.3 Improve health care quality, safety, cost and value.                     $219        $221       $246
   1.4 Recruit, develop and retain a competent health care workforce.
   2:   Public Health Promotion and Protection, Disease
        Prevention, and Emergency Preparedness Prevent and
        control disease, injury, illness and disability across the lifespan,
        and protect the public from infectious, occupational,
        environmental and terrorist threats.
   2.1 Prevent the spread of infectious diseases.
   2.2 Protect the public against injuries and environmental threats.
   2.3 Promote and encourage preventive health care, including mental            $4          $5         $5
        health, lifelong healthy behaviors and recovery.
   2.4 Prepare for and respond to natural and man-made disasters.
   3:   Human Services Promote the economic and social well-being
        of individuals, families and communities.
   3.1 Promote the economic independence and social well-being of                $20        $22         $24
        individuals and families across the lifespan.
   3.2 Protect the safety and foster the well-being of children and youth.
   3.3 Encourage the development of strong, healthy and supportive
        communities.
   3.4 Address the needs, strengths and abilities of vulnerable
        populations.
   4:   Scientific Research and Development Advance scientific and
        biomedical research and development related to health and
        human services.
   4.1 Strengthen the pool of qualified health and behavioral science
        researchers.
   4.2 Increase basic scientific knowledge to improve human health and
        development.
   4.3 Conduct and oversee applied research to improve health and
        well-being.
   4.4 Communicate and transfer research results into clinical, public
        health and human service practice.
   Total OIG Budget Authority                                                   $243        $248       $275




                                                                                                              Page 12
Online Performance Appendix                                               Department of Health and Human Services
                                                                                        Office of Inspector General

   The HHS Strategic Plan for FY 2007 to FY 2012 outlines the Department’s plan for advancing
   the HHS mission of enhancing the health and well-being of Americans. The plan contains two
   sections that describe (1) the Strategic Goals and Objectives deemed essential for achieving
   the HHS mission, and (2) a set of value-based commitments intended to ensure that the
   Department responsibly pursues the accomplishment of its goals. The Strategic Goals and
   Objectives in the HHS Strategic Plan are programmatically focused and correspond to specific
   HHS operating divisions and the programs and initiatives operated therein. The value-based
   commitments, included in Chapter 6, outline the Department’s commitment to “responsible
   stewardship and effective management” of HHS resources by committing to “effective resource
   management” and “effective planning, oversight, and strategic communications.”

   Distributing HHS’ costs by Strategic Objective in the FY 2007 to FY 2012 Strategic Plan is an
   important way to convey HHS’ commitment to its goals, however not all HHS costs directly
   support a specific Strategic Goal or Objective. Specifically, in OIG oversight and compliance
   work the results of discreet oversight activities transcend a single HHS Strategic Objective by
   addressing underlying threats to the financial integrity of programs and the well-being of
   program beneficiaries. In these instances, full cost estimates provided in this table are very
   rough approximations.

   Where possible, OIG costs are segregated based on HHS Strategic Objective. 10 In the
   instances where it was not possible, costs are proportionately distributed across the HHS
   Strategic Objectives for which OIG was able to report a contribution. The following list contains
   examples of the functions that OIG performs that do not correspond directly to a HHS Strategic
   Goal or Objective:

   •    Conduct annual Chief Financial Statement Officer (CFO) Audits;
   •    Conduct Federal Information Security Management Act (FISMA) audits;
   •    Review of single audits conducted on behalf of HHS; and
   •    Provide the security detail for the Secretary’s protection.

   The FY 2008 and FY 2009 estimates provided in the Summary of Full Cost table are determined
   based on a combination of prior year FTE usage and OIG’s planned discretionary work for
   FY 2008 as expressed in the FY 2008 Work Plan. Because OIG will not release the FY 2009
   Work Plan until September 2008, estimates of the distribution of OIG’s discretionary resources
   across HHS Strategic Goals for FY 2009 are approximate. Furthermore, these estimates are
   likely to change in response to specific requests for targeted program oversight made by the
   Administration or Congress, or as the result of focusing events that highlights the need to
   prioritize certain studies.




   10
           Approximately 90 percent of OIG’s FY 2007 costs tie back to HHS Strategic Objectives. The remaining 10
           percent, or approximately 14 million dollars, of OIG’s annual costs in FY 2007, and estimated costs for
           FY 2008 and FY 2009 have been proportionately distributed across Strategic Objectives 1.3, 2.3, and 3.1.


                                                                                                                      Page 13
Online Performance Appendix                                   Department of Health and Human Services
                                                                            Office of Inspector General


   List of Program Evaluations

   There were no program evaluations of the OIG during FY 2007. As such, OIG does not have
   any information to report in this section.


   Discontinued Performance Measures Table

   There were no discontinued OIG performance measures during FY 2007. As such, OIG does
   not have any information to report in this section.


                                     Data Source and Validation

              Measure                          Data Source                   Data Validation
          Unique Identifier
   1.1: Expected Recoveries           OIG data systems track audit     Estimates of expected
                                      disallowances, judicial and      recoveries are recorded in
                                      administrative adjudications,    OIG data systems when (1)
                                      and out of court settlements.    program managers formally
                                                                       agree to disallow and
                                                                       pursue recovery of
                                                                       questioned costs, (2)
                                                                       judicial and administrative
                                                                       adjudications are
                                                                       established, or (3) out of
                                                                       court settlements are
                                                                       agreed upon.*
   1.2: Return on Investment          The numerator, expected          N/A
                                      recoveries, is tracked in OIG
                                      data systems described in 1.1
                                      of this table. The denominator
                                      is the OIG budget.

   1.3: Number of Accepted Quality    OIG data systems track reports   OIG follows an established
        and Management                and recommendations.             process for identifying,
        Improvement                                                    documenting and validating
        Recommendations                                                organization-wide tracking
                                                                       and reporting of accepted
                                                                       recommendations.*

   *note: OIG expected recoveries and return on investment performance measures have been
   audited by GAO in the past and remain available for future audits.




                                                                                                Page 14
Online Performance Appendix                                   Department of Health and Human Services
                                                                            Office of Inspector General


                                  Target vs. Actual Performance

                         Performance Measures with Slight Differences

   The performance target for the following measures was set at an approximate target level, and
   the deviation from that level is slight. There was no effect on overall program or activity
   performance.
                      Program                                             Measure
                                                                     Unique Identifier
   OIG                                                    1.3: Number of Accepted Quality and
                                                                Management Improvement
                                                                Recommendations




                                                                                                   Page 15
